LEGAL PRINTERS,

LLC

202-747-2400
202-449-9565 Fax
LegalPrinters.com

5614 Connecticut Avenue, NW #307
Washington, DC 20015

August 28, 2019
Clerk
Supreme Court of the United States
1 First Street, NE
Washington, D.C. 20002
RE:

TERESA BUCHANAN V. F. KING ALEXANDER, DAMON ANDREW, A.G. MONACO,
AND GASTON REINOSO

Dear Sir or Madam:
As a member of the Supreme Court Bar I hereby certify that at the request of
counsel for the Petitioner, on August 28, 2019 I caused service to be made pursuant to
Rule 29 on the following counsel for the Respondents:
RESPONDENTS:
Sheri M. Morris
Daigle, Fisse & Kessenich
8480 Bluebonnet Blvd., Suite F
Baton Rouge, LA 70810
(225) 421-1800
smorris@daiglefisse.com
Carlton Jones, III
Louisiana State University
124 University Administration Bldg.
3810 W. Lakeshore Drive
Baton Rouge, LA 70808
(225) 578-6332
jones@lsu.edu
This service was effected by depositing three copies of a Petition for a Writ of
Certiorari in an official “first class mail” receptacle of the United States Post Office as
well as by transmitting digital copies via electronic mail.
Sincerely,

Arthur D. Chotin, Esq.
Principal

